Audit Report




OIG-12-037
SAFETY AND SOUNDESS: Material Loss Review of Corus Bank,
N.A.
January 24, 2012




Office of
Inspector General
DEPARTMENT OF THE TREASURY
Contents

Audit Report

Causes of Corus’s Failure................................................................................      3
  Risky Business Strategy .............................................................................        3
  Insufficient Loan Administration Procedures..................................................                4
  Bank Strategy Did Not Change as Real Estate Markets Deteriorated ................                            5

OCC’s Supervision of Corus. ...........................................................................         6
  Inadequate Guidance to Address High Concentrations....................................                        7
  OCC’s Special Supervision Division Used Enforcement Action and PCA……… ..                                      9
  Interactions between Corus and Corus Bankshares…… ..................................                         10

Recommendation ...........................................................................................     14

Appendices

    Appendix     1:     Objectives, Scope, and Methodology ....................................                16
    Appendix     2:     Background........................................................................     19
    Appendix     3:     Management Response .......................................................            21
    Appendix     4:     Major Contributors to This Report .........................................            23
    Appendix     5:     Report Distribution ..............................................................     24

Abbreviations
    CEO                 chief executive officer
    CRE                 commercial real estate
    FDIC                Federal Deposit Insurance Corporation
    FRB Chicago         Federal Reserve Bank of Chicago
    JAMES               Joint Audit Management Enterprise System
    MRA                 matter requiring attention
    OCC                 Office of the Comptroller of the Currency
    PCA                 prompt corrective action
    ROE                 report of examination




                        Material Loss Review of Corus Bank, N.A.                                      Page i
                        (OIG-12-037)
 




           This Page Intentionally Left Blank




    Material Loss Review of Corus Bank, N.A.    Page ii
    (OIG-12-037)
 
                                                                                                  Audit
OIG
The Department of the Treasury
                                                                                                  Report
Office of Inspector General

 


                                            January 24, 2012



                                            John G. Walsh
                                            Acting Comptroller of the Currency

                                            This report presents the results of our material loss review of the
                                            failure of Corus Bank, N.A. (Corus), of Chicago, Illinois, and of the
                                            Office of the Comptroller of the Currency’s (OCC) supervision of
                                            the institution. OCC closed Corus and appointed the Federal
                                            Deposit Insurance Corporation (FDIC) as receiver on September 11,
                                            2009. This review is mandated by section 38(k) of the Federal
                                            Deposit Insurance Act because of the magnitude of Corus’s
                                            estimated loss to the Deposit Insurance Fund. 1,2 As of December
                                            31, 2011, FDIC estimated that the loss would be $797.9 million.
                                            FDIC also estimated that the bank’s failure would result in a loss of
                                            $16 million to the Transaction Account Guarantee Program.

                                            Our objectives were to determine the causes of Corus’s failure;
                                            assess OCC’s supervision of Corus, including implementation of the
                                            prompt corrective action (PCA) provisions of section 38; and make
                                            recommendations for preventing such a loss in the future. To
                                            accomplish these objectives, we reviewed the supervisory files and
                                            interviewed officials at OCC and FDIC. We conducted our fieldwork
                                            primarily from October 2009 through January 2010. Appendix 1
                                            contains a more detailed description of our review objectives,
                                            scope, and methodology. Appendix 2 contains background
                                                            
1
  At the time of Corus’s failure, section 38(k) defined a loss as material if it exceeded the greater of $25
million or 2 percent of the institution’s total assets. Effective July 21, 2010, section 38(k) defines a
loss as material if it exceeds $200 million for calendar years 2010 and 2011, $150 million for calendar
years 2012 and 2013, and $50 million for calendar years 2014 and thereafter (with a provision that the
threshold can be raised temporarily to $75 million if certain conditions are met).
2
  Definitions of certain terms, which are underlined where first used in this report, are available in
OIG-11-065, Safety and Soundness: Material Loss Review Glossary (Apr. 11, 2011). That document is
available on the Treasury Office of Inspector General’s (OIG) website
at http://www.treasury.gov/about/organizational-structure/ig/Pages/by-date-2011.aspx.

                                            Material Loss Review of Corus Bank, N.A.                    Page 1
                                            (OIG-12-037) 
information on Corus’s history, OCC assessments paid by Corus,
and the number of OCC staff hours spent examining Corus.
Appendix 3 provides OCC’s response to this report.

In brief, our review found Corus’s failure was caused by its
business strategy that included high concentrations in commercial
real estate (CRE) lending and a substantial presence in volatile
geographic markets. In addition, Corus’s loan management
procedures were not commensurate with its high-risk lending
practices. With regard to supervision, OCC examiners generally
followed existing guidance with respect to Corus. However, we
believe that guidance is not adequate for effectively dealing with
high concentrations. We also identified several matters related to
Corus’s interaction with its holding company, Corus Bankshares.
Specifically, (1) Corus Bankshares did not serve as a source of
strength for Corus during 2009; (2) Corus’s loan participations
with its holding company to meet legal lending limit requirements,
while allowed, did not diversify lending risk; and (3) Corus may
have improperly amended two loan participations with its holding
company. We referred certain matters related to Corus’s
transactions with the holding company to the Treasury Inspector
General’s Office of Investigations.

We reaffirm a recommendation from our prior material loss reviews
that OCC work with its regulatory partners to determine whether a
limit on risky concentrations should be established. We are also
making one new recommendation that OCC work with its
regulatory partners to determine whether regulatory guidance be
changed or legislation should be proposed to prohibit or limit the
sale of loan participations by a bank to its holding company for
purpose of complying with the legal lending limit. In a written
response, which is included in appendix 3, OCC agreed to contact
its regulatory partners to determine if there is an appetite to change
regulatory guidance or propose legislation concerning the sale of
loan participations by a bank to its holding company. We consider
the planned action to be responsive to our recommendation.
However, OCC will need to record its planned completion date for
taking corrective action in the Joint Audit Management Enterprise
System (JAMES), the Department of the Treasury’s audit
recommendation tracking system.



Material Loss Review of Corus Bank, N.A.                     Page 2
(OIG-12-037)
Causes of Corus’s Failure
                                            Although profitable for years, Corus was ultimately unable to
                                            manage the risk inherent in its business strategy. Corus also lacked
                                            adequate loan management procedures. As economic conditions
                                            deteriorated, Corus did not alter its business strategy and the bank
                                            incurred unsustainable losses.

                                            Risky Business Strategy

                                            Aggressive Growth in Assets and CRE Concentrations

                                            Beginning in 2002, Corus’s board and management implemented a
                                            high-growth strategy. The bank’s assets increased from $2.5 billion
                                            in 2002 to nearly $10 billion by 2006, in part due to an increase in
                                            its CRE loan portfolio. 3 Corus specialized in the condominium
                                            construction and conversion segment of CRE lending, and the bank
                                            increased total CRE loans from $1.6 billion in 2002 to a peak of
                                            $4.4 billion during 2005. In 2008, CRE loans totaled $4.0 billion.
                                            The volume of Corus’s CRE loan portfolio expressed as a
                                            percentage of the bank’s total risk-based capital was exceptionally
                                            high, ranging from 397 percent at December 31, 2006, to 570
                                            percent at December 31, 2008. 4

                                            Loan Concentrations in Volatile Geographic Markets

                                            In an attempt to limit exposure to potential losses, Corus diversified
                                            its lending activities to include the volatile markets of Miami and
                                            other Florida locations, southern California, Las Vegas, Atlanta,
                                                            
3
  The other major component of this increase in assets was available for sale securities, which
comprised $5.2 billion in total assets. OCC regarded these as conservative investments used as a
source of liquidity rather than earnings.
4
  In December 2006, OCC, the Board of Governors of the Federal Reserve System, and FDIC jointly
published Guidance on Concentrations in Commercial Real Estate Lending, Sound Risk Management
Practices (Guidance). The Guidance reminded institutions that strong risk management practices and
appropriate levels of capital are important elements of a sound CRE lending program, particularly when
an institution has a concentration in CRE loans. The Guidance did not establish specific CRE lending
limits; rather, it promoted sound risk management practices and appropriate levels of capital to enable
institutions to continue to pursue CRE lending in a safe and sound manner. The sophistication of an
institution’s CRE risk management processes should be appropriate to the size of the portfolio, as well
as the level and nature of concentrations and the associated risk to the institution.

                                            Material Loss Review of Corus Bank, N.A.                     Page 3
                                            (OIG-12-037)
New York, Chicago, and Washington, D.C. An OCC examiner told
us that although previous declines in the real estate market had
usually been regional, the market collapse that began in 2007 was
nationwide. Moreover, the decline was particularly severe in many
of Corus’s principal market locations. As a result, Corus’s
geographic diversification ultimately provided little protection.
Furthermore, OCC examiners observed in the 2008 report of
examination (ROE) that Corus had failed to perform sufficient
analyses to determine market capacity for condominium sales and
probable future conditions as the market weakened.

Insufficient Loan Administration Procedures

Corus management did not implement effective controls over CRE
loan administration. The bank’s almost exclusive focus on one
market niche (condominium lending) required heightened risk
management processes and sound underwriting. In this regard,
OCC considered Corus’s procedures to be adequate up to when the
nationwide economic decline began to affect the bank’s loan
portfolio. Prior to the 2008 examination, OCC examiners praised
Corus repeatedly for the bank’s high-quality management
information systems and thorough credit files. However, OCC
determined in 2008 that Corus (1) had not consistently performed
timely and accurate appraisals to support the value of its loans and
(2) had inappropriately re-extended loans without reappraisals in
situations where condominium sales were strong, but property
prices were falling.

Until the fourth quarter of 2006, Corus had experienced 27
consecutive quarters without a loan portfolio loss. In fact, Corus
had never reported a quarter-to-quarter loss until the second
quarter of 2008 when Corus, as directed by OCC, obtained
reappraisals for a number of its loans. The reappraisals required
Corus to adjust many loans’ underlying property values down. The
cumulative effect of those adjustments, among other things,
resulted in a net loss for Corus of $455 million for 2008, a
dramatic decline from the previous year’s net income of $113
million. Classified assets more than quadrupled during 2008,
amounting to over $2.8 billion and representing 262 percent of
Tier 1 capital plus the allowance for loan and lease losses (ALLL).



Material Loss Review of Corus Bank, N.A.                   Page 4
(OIG-12-037)
Bank Strategy Did Not Change as Real Estate Markets Deteriorated

Indicators of an economic recession and real estate market
downturn emerged as early as 2005, but Corus kept true to its
business strategy. According to an OCC examiner, the fact that
Corus had not experienced net losses for almost 20 years
contributed to management’s belief in the superiority of the bank’s
strategy and its invulnerability to the downturn. The bank had
record earnings in 2006, with net income of $189 million—a 38
percent increase over 2005. As mentioned above, Corus had never
reported any quarter-to-quarter losses until the second quarter of
2008. Management believed that Corus’s strong capital and
liquidity positions would enable the bank to withstand any
economic downturn.

We noted that the bank accompanied its release of its third-quarter
earnings for 2006 with the statement that “while others may be
looking for an exit strategy, we [Corus] see opportunity.” At a
February 2007 Corus board meeting, an OCC official talked to the
board and senior management about concentration risk. In May
2007, OCC communicated the results of a quarterly review to
Corus noting that loan concentrations in the weakening housing
market were conditions the management team had not faced
previously. Despite these warnings, in a press release dated
April 29, 2008, Corus announced that the bank was continuing to
originate new loans and that it planned no major changes to the
bank’s business model. Corus did not cease lending until June 30,
2008.

OCC officials told us that the quality of management’s decisions
declined in 2007 and 2008 as evidenced by some projects Corus
chose to finance. For example, Corus originated a loan for a
development that was 5 to 10 miles off the Las Vegas strip.
Similarly, an OCC official stated that the bank’s projects in later
years were not as high quality, citing Florida developments
surrounded by car dealerships instead of water. Another OCC
official also said the locations of the bank’s projects in Florida did
not make sense, such as a project in the Everglades.

Corus’s escalating volume of problem loans resulted in significant
losses to the bank—$455 million in 2008, and $779 million the


Material Loss Review of Corus Bank, N.A.                       Page 5
(OIG-12-037)
                                            first 6 months of 2009. Corus became critically undercapitalized
                                            for PCA purposes on July 30, 2009. OCC subsequently closed
                                            Corus on September 11, 2009, and appointed FDIC as receiver.

              OCC’s Supervision of Corus
                                            OCC’s supervision of Corus did not prevent a material loss to the
                                            Deposit Insurance Fund. While we found that OCC examiners
                                            generally followed existing guidance in supervising Corus, we
                                            believe that guidance regarding concentration risks needs to be
                                            reexamined and enhanced.

                                            Table 1 summarizes OCC’s examinations of Corus and related
                                            enforcement actions from 2006 to 2009. 5 Generally, matters
                                            requiring attention (MRAs) represent the most significant items
                                            reported in ROEs requiring corrective action.




                                                            
5
  OCC conducted its examinations and performed offsite monitoring of Corus in accordance with the
timeframes prescribed in the OCC Comptroller’s Handbook.


                                            Material Loss Review of Corus Bank, N.A.                   Page 6
                                            (OIG-12-037)
Table 1. Summary of OCC’s Corus Examinations and Enforcement Actions
                                                 Examination Results
Date                                                 Number of
started/Type Assets        CAMELS      Number of     recommendations Enforcement
of exam      (billions)    rating      MRAs          or suggestions  actions
9/25/2006
Full-scope        $9.4              1/121111        None              2      None
examination
5/25/2007
Quarterly         $9.6              2/131211        None              None   None
Monitoring
9/25/2007
Full-scope        $9.4              2/131211        None              4      None
examination
3/31/2008
Quarterly         $9.0              2/232311        None              1      None
Monitoring
7/28/2008
Ongoing           $9.0              3/232321        None              None   None
Monitoring
10/14/2008
                                                                             Consent order,
Full-scope        $8.4              4/454442        9                 1
                                                                             issued 2/18/2009.
Examination
5/1/2009
                                                                             Consent order
Targeted          $7.6              5/555555        None              None
                                                                             remained in place.
examinationa
                                                                             Consent order
8/4/2009
                                                                             remained in place.
Targeted     $7.0                   5/555555        None              None
                                                                             PCA directive
examinationa
                                                                             issued 9/8/2009.
a
 This examination was directed by OCC’s Special Supervision Division.
Source: OCC ROEs, consent orders, and PCA directives; Corus call reports.


                   Inadequate Guidance to Address High Concentrations

                   OCC stated in both the 2006 and 2007 ROEs that Corus’s
                   concentration in CRE lending and certain geographic regions posed
                   significant risk to the bank. Corus’s CRE loan portfolio as a
                   percentage of the bank’s total risk-based capital was high at 397
                   percent at December 31, 2006, and 424 percent at December 31,
                   2007. According to the interagency guidance on CRE
                   concentrations a CRE loan portfolio representing more than 100
                   percent of risk-based capital is considered a CRE concentration
                   requiring heightened risk management practices. Corus’s CRE
                   concentration far exceeded this as early as 2006.



                   Material Loss Review of Corus Bank, N.A.                            Page 7
                   (OIG-12-037)
For years, OCC examiners considered Corus’s risks reasonable
given the bank’s risk mitigation systems, including experienced
management, a large capital base, and high-quality underwriting –
all of which are examples of enhanced risk management practices
that comply with interagency guidance. The rating discussions of
individual CAMELS components in the 2006 and 2007 ROEs were
very positive and included repeated comments on the strength and
appropriateness of Corus’s risk management practices. At the
same time, these ROEs noted that Corus’s CRE concentration
posed significant risk to the bank; risks to capital were high; loan
losses and credit risk were increasing; and the bank’s lending
strategy, rapid portfolio growth, and deposit structure demanded
strong liquidity.

When asked why OCC did not address CRE concentration more
forcefully, OCC examiners told us that providing specific direction
as to the level of CRE concentration considered too risky would be
tantamount to OCC telling the bank what to do with its capital or
how to manage its specialty business. In their opinion, examiners
need to use supervisory judgment to determine a level of
concentration at which a bank would need to reduce concentration
or increase capital. Because Corus had a history of profits and
capital in excess of OCC requirements, the OCC examiners believed
that they could not justify or support a recommendation that Corus
reduce concentration levels.

OCC officials told us that Corus did everything right, meaning it
had implemented systems considered sound to manage its risks but
that the bank in the end demonstrated that, in the words of OCC
officials, “concentrations kill.” An OCC official said that the lesson
of Corus’s failure is that concentrations are high-risk regardless of
what risk management systems are in place. Because there is no
policy that prohibits concentrations above a certain level, the OCC
official said the only supervisory option OCC failed to exercise was
to force Corus to reduce concentrations in 2006 or 2007. The OCC
official added that OCC could only have used moral suasion to
accomplish this, as Corus’s management of concentrations met
regulatory requirements.

While we understand the difficulties faced by regulators in
controlling high risk concentrations, we believe it is important to


Material Loss Review of Corus Bank, N.A.                     Page 8
(OIG-12-037)
                                            note that supervisory tools were available that could have been
                                            used to require Corus to reduce and/or limit its concentrations.
                                            Specifically, OCC could have deemed the high CRE concentrations
                                            to be an unsafe and unsound practice and invoked its authority to
                                            take enforcement action to address the high level of CRE
                                            concentration risk identified as far back as 2006. That said, as we
                                            have previously recommended in material loss reviews of failed
                                            banks, we continue to believe OCC, in coordination with its
                                            regulatory partners, should determine whether to propose changes
                                            to regulatory guidance and/or legislation to establish limits or other
                                            controls for concentrations that pose an unacceptable safety and
                                            soundness risk. Those changes should also contemplate an
                                            appropriate range of examiner response to high risk
                                            concentrations. 6

                                            OCC’s Special Supervision Division Used Enforcement Action and
                                            PCA

                                            The purpose of PCA is to resolve problems of insured depository
                                            institutions with the least possible long-term loss to the Deposit
                                            Insurance Fund. PCA requires federal banking agencies to take
                                            certain actions when an institution’s capital drops below certain
                                            levels. PCA also gives regulators flexibility to supervise institutions
                                            based on criteria other than capital levels.

                                            As a result of its October 2008 examination, OCC designated
                                            Corus to be in troubled condition on December 9, 2008. That same
                                            day OCC transferred supervision of Corus to its Special Supervision
                                            Division (SSD), which was responsible for overall supervision of the
                                            bank, until it was closed on September 11, 2009.

                                            After the supervision transferred to SSD, OCC took enforcement
                                            action to address the numerous deficiencies identified in the
                                            October 2008 examination. These deficiencies included a
                                            quadrupling of Corus’s classified assets over the previous year,
                                            resulting in problem loan levels that were among the highest in the
                                            nation for commercial banks, as well as insufficient capital,
                                            liquidity, and earnings. On February 18, 2009, Corus’s board
                                                            
6
 OIG, Safety and Soundness: Material Loss Review of Union Bank, National Association,
OIG-CA-10-009 (May 11, 2010).

                                            Material Loss Review of Corus Bank, N.A.                       Page 9
                                            (OIG-12-037)
agreed to enter into a consent order with OCC requiring the bank
to comply with 12 articles including implementing within 90 days a
revised CRE management program designed to manage the risk in
the bank’s CRE loan portfolio in accordance with OCC guidance,
and revising and maintaining an adequate ALLL in accordance with
OCC guidance.

As a result of Corus’s March 31 and June 30, 2009, call reports,
OCC notified Corus that it was deemed undercapitalized and
critically undercapitalized, respectively, for PCA purposes and
directed Corus to submit an acceptable capital restoration plan.
OCC determined the plan submitted by Corus was unacceptable
because it did not contain the required information. OCC closed
Corus before the bank submitted a second plan. We determined
that OCC took the appropriate PCA in a timely manner as the
bank’s capital levels fell. Those actions, however, did not prevent
Corus’s failure.

Interactions between Corus and Corus Bankshares

We identified several matters related to Corus’s interaction with its
holding company, Corus Bankshares. Specifically, (1) Corus
Bankshares did not serve as a source of strength for Corus during
2009; (2) Corus’s loan participations with its holding company,
while allowed, did not diversify lending risk; and (3) Corus may
have inappropriately amended two loan participations with its
holding company.

Provision of Corus Bankshares Funding to Corus

The Bank Holding Company Act states that a bank’s holding
company is to serve as a source of financial strength to its
subsidiary bank and that the holding company is not to conduct its
operations in an unsafe or unsound manner, such as in a manner
that would present a risk to the bank’s financial safety, soundness,
or stability. Consistent with the act, Corus Bankshares’ board
approved a capital support agreement on April 29, 2008, to
downstream funds to Corus to cover its quarterly losses. However,
the holding company’s board rescinded this resolution of support
on January 22, 2009. In an email dated July 29, 2009, FDIC
strongly encouraged the Federal Reserve Bank of Chicago (FRB


Material Loss Review of Corus Bank, N.A.                    Page 10
(OIG-12-037)
                                            Chicago), as the holding company’s federal regulator, to pursue
                                            having Corus Bankshares inject capital into the bank as soon as
                                            possible. In an email dated August 1, 2009, FRB Chicago conveyed
                                            an expectation to the president of Corus Bankshares that the
                                            holding company would inject a minimum of $30 million into Corus,
                                            upon approval by the board of directors on August 3, 2009. The
                                            minutes for a joint bank and holding company board of directors
                                            meeting on August 3, 2009, state the FRB request was discussed
                                            but that the holding company had not committed to
                                            downstreaming its available capital to the bank. Corus Bankshares
                                            did not make the capital infusion.

                                            When Corus became critically undercapitalized in August 2009,
                                            OCC issued a PCA directive on September 8, 2009, that required,
                                            among other things, Corus demand that Corus Bankshares
                                            contribute all of its unencumbered assets to the bank in order to
                                            minimize losses to the Deposit Insurance Fund in the event of
                                            Corus’s failure. In accordance with the PCA directive, Corus’s chief
                                            executive officer (CEO) issued a written demand to Corus
                                            Bankshares for the capital contribution. However, the CEO of Corus
                                            Bankshares, the same person who served as Corus’s CEO,
                                            responded that he had been instructed by the holding company’s
                                            external legal counsel to reject the demand. He went on to explain
                                            that was because if the holding company transferred funds to the
                                            bank, the bank would become responsible for repayment of a
                                            $400 million trust preferred shareholder obligation. 7 OCC rejected
                                            this position and sought assistance from FDIC. FDIC was unaware
                                            of any legal precedent to support the holding company’s position.
                                            Nevertheless, OCC and FDIC were unable to compel Corus
                                            Bankshares to comply with the demand for a capital infusion.

                                            OCC and FDIC officials told us that OCC subsequently sought
                                            assistance from FRB Chicago and the Board of Governors of the
                                            Federal Reserve System. FRB Chicago held discussions on the
                                            capital contribution issue with Corus Bankshares and contacted
                                            Federal Reserve headquarters to discuss options under the “source

                                                            
7
  Trust preferred shareholders hold securities that are subordinated to all of the issuer's other debt.
Therefore, it is an expectation that the holding company will retain funds to support its obligation to
these shareholders.

                                            Material Loss Review of Corus Bank, N.A.                  Page 11
                                            (OIG-12-037)
                                            of strength doctrine.” 8 FRB Chicago ultimately deferred to the legal
                                            concerns raised by the holding company’s external counsel and,
                                            given that Corus was likely not able to continue as a going
                                            concern, did not require Corus Bankshares to inject capital into the
                                            bank.

                                            Legal Lending Limit and Loan Participations with Corus Bankshares

                                            Federal law requires that, in most cases, a bank may not hold any
                                            loan or loans for a single borrower exceeding 15 percent of the
                                            bank’s capital base. 9 Banks, however, are permitted to issue loan
                                            participations for the portion of a loan that exceeds 15 percent in
                                            order to be in compliance with the legal lending limit. Corus sold
                                            the portion of its loans that exceeded this regulatory threshold to
                                            Corus Bankshares, which it was allowed to do under current
                                            regulation. 10 In this regard, as of April 30, 2008, Corus Bankshares
                                            had 5 participation commitments with Corus totaling $66.9 million.
                                            Corus’s practice of only issuing loan participations to its own
                                            holding company, while permitted, did not diversify the bank’s risk
                                            beyond its own ownership structure. In this regard, it is also
                                            important to note that Corus Bankshares was a single-bank holding
                                            company. As a result, when the economic downturn caused
                                            deterioration of the participated loans, it directly impacted the
                                            holding company’s ability to serve as a source of strength and
                                            support to Corus thus compounding Corus’s problems and the risk
                                            to the Deposit Insurance Fund. We believe selling loan
                                            participations to holding companies, especially single-bank holding
                                            companies, for the purpose of meeting legal lending limits does not
                                            adequately diversify credit concentration risk and, therefore, a
                                            change to the regulation or law addressing such should be sought.




                                                            
8 
  A fundamental and longstanding principle underlying supervision and regulation of bank holding
companies is that bank holding companies should serve as sources of financial strength to their
subsidiary banks.
9
  12 U.S.C. 84 Lending Limits
10
   12 C.F.R. 32 Lending Limits

                                            Material Loss Review of Corus Bank, N.A.                   Page 12
                                            (OIG-12-037)
                                            Corus’s Amendment of Participation Agreements with Corus
                                            Bankshares

                                            Corus amended participation agreements for two loans where
                                            Corus Bankshares participated, in accordance with the bank’s
                                            practice of buying down the holding company’s participation in
                                            loans when the bank’s legal lending limit increased. The boards of
                                            the bank and the holding company subsequently determined that
                                            these amendments may have violated the Federal Reserve Act.

                                            On September 11, 2008, Corus amended the first loan when it
                                            was rated special mention, thereby potentially violating section
                                            23A of the Federal Reserve Act, which restricts a bank’s ability to
                                            purchase a low-quality asset from an affiliate. Corus amended both
                                            the first and second loans to change the repayment method from
                                            pari passu 11 to last-in, first-out. 12 This amendment granted Corus
                                            Bankshares more favorable loan terms, resulting in a benefit to the
                                            holding company of approximately $10 million in participation
                                            contributions. It also potentially violated section 23B of the Federal
                                            Reserve Act, which prohibits a bank from engaging in affiliate
                                            transactions under terms more favorable than would prevail in
                                            comparable transactions with nonaffiliated entities.

                                            In August 2009, the boards of the bank and holding company
                                            determined that remediation of the section 23A violation was
                                            necessary, but Corus was closed before remediation occurred. OCC
                                            informed the boards that the method of remediation would need to
                                            be tied to the handling of the August 2009 OCC capital demand
                                            letter. However, the holding company’s board decided to deny the
                                            capital demand letter and thereby not return the funds in
                                            accordance with the remediation plan. Since OCC did not regulate
                                            Corus Bankshares, it could not require compliance to the capital
                                            demand letter. As for the potential section 23B violation, the bank
                                            and holding company’s boards determined that their actions were
                                            commercially reasonable and that remediation was unnecessary.



                                                            
11
   With pari passu, all parties to the loan have equal seniority in repayment.
12
   With last-in, first-out, the last party to provide loan funding (in this case, Corus Bankshares) is the
first party repaid.

                                            Material Loss Review of Corus Bank, N.A.                    Page 13
                                            (OIG-12-037)
           These potential violations were among the matters we referred to
           the Treasury Inspector General’s Office of Investigations.

Recommendation
           As mentioned above, as part of a previous material loss review we
           included a recommendation that OCC work with its regulatory
           partners to determine whether to propose changes to regulatory
           guidance and/or legislation to establish limits or other controls for
           concentrations that pose an unacceptable safety and soundness
           risk and determine an appropriate range of examiner response to
           high risk concentrations. Our material loss review of Corus
           reaffirms the need for such limits or other controls on
           concentrations.

           Additionally, as a new recommendation, we recommend that the
           Comptroller of the Currency work with OCC’s regulatory partners
           to determine whether regulatory guidance be changed, or
           legislation should be proposed to amend 12 U.S.C. 84, Lending
           Limits, to prohibit or limit the sale of loan participations by a bank
           to its holding company for purpose of complying with the legal
           lending limit.

           Management Response

           OCC agreed to contact its regulatory partners to determine if there
           is an appetite to make a change. OCC also commented that it is
           common practice for banks to sell loan participations to their
           holding companies and affiliates.

           OIG Comment

           Management’s proposed action is responsive to the OIG’s
           recommendation. OCC will need to record its planned completion
           date for taking corrective action in JAMES.




           Material Loss Review of Corus Bank, N.A.                      Page 14
           (OIG-12-037)
                              * * * * *

We appreciate the courtesies and cooperation provided to our staff during
the audit. If you wish to discuss the report, you may contact me at
(202) 927-0384. Major contributors to this report are listed in
appendix 4.




Jeffrey Dye /s/
Audit Director




      Material Loss Review of Corus Bank, N.A.                  Page 15
      (OIG-12-037)
                                            Appendix 1
                                            Objectives, Scope, and Methodology




                                            We conducted this material loss review of Corus Bank, N.A.
                                            (Corus), of Chicago, Illinois, in response to our mandate under
                                            section 38(k) of the Federal Deposit Insurance Act. 13 This section
                                            provides that if a deposit insurance fund incurs a material loss with
                                            respect to an insured depository institution, the inspector general
                                            for the appropriate federal banking agency is to prepare a report to
                                            the agency that

                                            •      ascertains why the institution’s problems resulted in a material
                                                   loss to the insurance fund;
                                            •      reviews the agency’s supervision of the institution, including its
                                                   implementation of the prompt corrective action (PCA) provisions
                                                   of section 38; and
                                            •      makes recommendations for preventing any such loss in the
                                                   future.

                                            At the time of Corus’ failure, section 38(k) defined a loss as
                                            material if it exceeds the greater of $25 million or 2 percent of the
                                            institution’s total assets. The law also requires the inspector
                                            general to complete the report within 6 months after it becomes
                                            apparent that a material loss has been incurred.

                                            We initiated a material loss review of Corus based on the loss
                                            estimate by the Federal Deposit Insurance Corporation (FDIC). As
                                            of December 31, 2011, FDIC estimated that the loss to the Deposit
                                            Insurance Fund from Corus’s failure would be $797.9 million. 14

                                            Our objectives were to determine the causes of Corus’s failure;
                                            assess the Office of the Comptroller of the Currency’s (OCC)
                                            supervision of Corus, including implementation of the prompt
                                            corrective action provisions of section 38; and make
                                            recommendations for preventing such a loss in the future. To
                                            accomplish our objectives, we conducted fieldwork at OCC’s
                                            headquarters in Washington, DC; OCC’s field office in
                                            Schaumburg, Illinois; FDIC’s Division of Supervision and Consumer
                                            Protection in Chicago, Illinois; and Corus in Chicago, Illinois. We
                                            conducted our fieldwork primarily from October 2009 through
                                            January 2010.
                                                            
13
     12 U.S.C. § 1831(k).
14
     The FDIC’s loss estimate at the time of failure was $1.7 billion.

                                            Material Loss Review of Corus Bank, N.A.                       Page 16
                                            (OIG-12-037)
Appendix 1
Objectives, Scope, and Methodology




To assess the adequacy of OCC’s supervision of Corus, we
determined (1) when OCC first identified Corus’s safety and
soundness problems, (2) the gravity of the problems, and (3) the
supervisory response OCC took to get the bank to correct the
problems. We also assessed whether OCC (1) might have
discovered problems earlier; (2) identified and reported all the
problems; and (3) issued comprehensive, timely, and effective
enforcement actions that dealt with any unsafe or unsound
activities. Specifically, we performed the following work:

•   We determined that the time period relating to OCC’s
    supervision of Corus covered by our audit would be from
    January 2006 through Corus’s failure on September 11, 2009.
    This period included quarterly monitoring as well as three safety
    and soundness examinations.
•   We reviewed OCC’s supervisory files and records for Corus
    from 2006 through 2009. We analyzed examination reports,
    supporting workpapers, and related supervisory
    correspondence. We performed these analyses to gain an
    understanding of the problems identified, the approach and
    methodology OCC used to assess the bank’s condition, and the
    regulatory action OCC used to compel bank management to
    address deficient conditions. We did not conduct an
    independent or separate detailed review of the external auditor’s
    work or associated workpapers other than those incidentally
    available through the supervisory files.
•   We interviewed and discussed various aspects of Corus’s
    supervision with OCC officials, examiners, and an economist to
    obtain their perspectives on the bank’s condition and the scope
    of the examinations.
•   We interviewed officials from FDIC’s Division of Supervision and
    Consumer Protection and Division of Resolutions and
    Receiverships who were responsible for monitoring Corus for
    federal deposit insurance purposes and closing Corus.
•   We selectively reviewed Corus documents that FDIC had
    inventoried when it closed the bank. We identified documents
    for our review that were most likely to shed light on why the
    bank failed and on OCC’s supervision of the bank.
•   We assessed OCC’s actions based on its internal guidance and
    requirements of the Federal Deposit Insurance Act.



Material Loss Review of Corus Bank, N.A.                   Page 17
(OIG-12-037)
Appendix 1
Objectives, Scope, and Methodology




We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




Material Loss Review of Corus Bank, N.A.                   Page 18
(OIG-12-037)
Appendix 2
Background




History of Corus Bank

Corus Bank, N.A. (Corus), of Chicago, Illinois, was chartered as
Aetna State Bank in Illinois in 1913. It specialized in commercial
lending. In 1977, the bank changed its name to Aetna Bank. In
November 1995, the bank converted from a state-chartered
institution to a nationally chartered bank and changed its name to
Aetna Bank, N.A. The Office of the Comptroller of the Currency
(OCC) became its primary regulator. In June 1996, the bank
changed its name to Corus Bank, N.A. (Corus). Corus was wholly
owned by its holding company, Corus Bankshares, Inc. Corus’s
assets were approximately $8.3 billion as of December 31, 2008,
and $7 billion as of June 30, 2009.

Corus’s main office was located in Chicago, Illinois. Through its 11
branches in the Chicago metropolitan area, Corus offered general
banking services such as checking, savings, money market, and
time deposit accounts, as well as safe deposit boxes and other
services. Corus marketed deposit products nationwide, offering
above-market interest rates to attract depositors. These depositors
were serviced through a combination of Corus call center personnel
and an Internet-based account application and renewal system.
Beginning in 2003, Corus narrowed its focus from its historical
concentration in commercial real estate to a subcategory of
commercial real estate—residential condominium construction,
rehabilitation, and conversion loans. Corus originated loans secured
by the unsold units of completed condominium construction,
rehabilitation or conversion projects. Construction loans, however,
represented the largest portion of Corus’s condominium loans.

OCC Assessments Paid by Corus

OCC funds its operations in part through semiannual assessments
on national banks. OCC publishes annual fee schedules, which
include general assessments to be paid by each institution based
on the institution’s total assets. If the institution is a problem bank
(i.e., it has a CAMELS composite rating of 3, 4, or 5), OCC also
applies a surcharge to the institution’s assessment to cover
additional supervisory costs. These surcharges are calculated by
multiplying the sum of the general assessment by 50 percent for
3-rated institutions or by 100 percent for 4- and 5-rated


Material Loss Review of Corus Bank, N.A.                      Page 19
(OIG-12-037)
Appendix 2
Background




institutions. Table 2 shows the assessments that Corus paid to
OCC from 2006 through 2009.

Table 2: Assessments Paid by Corus to OCC, 2006–2009
Billing Period             Exam Rating        Amount Paid            % of Total
                                                                     Collection
1/1/2006–6/30/2006             1/121111                 $609,513        .002%
7/1/2006–12/31/2006            1/121111                  676,125        .002%
1/1/2007–6/30/2007             1/121111                  726,547        .002%
7/1/2007–12/31/2007            2/131211                  700,992        .002%
1/1/2008–6/30/2008             2/131211                  627,612        .002%
7/1/2008–12/31/2008            2/232311                  640,435        .002%
1/1/2009–6/30/2009             5/454442                  925,278        .002%
7/1/2009–12/31/2009            5/555555                1,067,682        .003%
Source: OCC

Number of OCC Staff Hours Spent Examining Corus

Table 3 shows the number of OCC staff hours spent examining
Corus from 2006 to 2009.

Table 3: Number of OCC Hours Spent Examining Corus, 2006-2009

                                               Number of
         Examination
                                              Examination
          Start Date
                                                   Hours
         3/22/2006                                    268
         9/25/2006                                 2,013*
         2/28/2007                                    480
         9/25/2007                                1,740*
         1/31/2008                                    243
         4/28/2008                                     80
         7/15/2008                                     36
         10/14/2008                               2, 408*
         3/30/2009                                  1,112
         7/06/2009                                    416
  *Hours are totaled for safety and soundness examinations,
 information technology examinations, and compliance
 examinations.
 Source: OCC




Material Loss Review of Corus Bank, N.A.                           Page 20
(OIG-12-037)
Appendix 3
Management’s Response




Material Loss Review of Corus Bank, N.A.   Page 21
(OIG-12-037)
Appendix 3
Management’s Response




Material Loss Review of Corus Bank, N.A.   Page 22
(OIG-12-037)
Appendix 4
Major Contributors to This Report




Rashmi Bartlett, Audit Manager
Bobbi A. Paulson, Auditor-in-Charge
April Ellison, Auditor
Jeanne Degagne, Referencer




Material Loss Review of Corus Bank, N.A.   Page 23
(OIG-12-037)
Appendix 5
Report Distribution




Department of the Treasury

    Deputy Secretary
    Office of Strategic Planning and Performance Management
    Office of the Deputy Chief Financial Officer, Risk and Control
    Group

Office of the Comptroller of the Currency

    Acting Comptroller of the Currency
    Liaison Officer

Office of Management and Budget

    OIG Budget Examiner

Federal Deposit Insurance Corporation

    Acting Chairman
    Inspector General

United States Senate

    Chairman and Ranking Member
    Committee on Banking, Housing, and Urban Affairs

    Chairman and Ranking Member
    Committee on Finance

United States House of Representatives

    Chairman and Ranking Member
    Committee on Financial Services

Government Accountability Office

    Comptroller General of the United States




Material Loss Review of Corus Bank, N.A.                   Page 24
(OIG-12-037)
